GR-90-98-009
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE COACHELLA POLICE DEPARTMENT, CALIFORNIA
GR-90-98-009
MARCH 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Coachella Police Department (CPD) California. The CPD
received a grant of $169,299 to hire or rehire two additional sworn police officers under
the Phase I program, $769,200 to hire or rehire five officers under the Universal Hiring
Program (UHP), and $49,313 to redeploy 2 full-time equivalents (FTEs) under the Making
Officer Redeployment Effective program for 1996 (MORE 96). The purpose of the additional
officers was to enhance community policing efforts.
In brief, our audit determined that the CPD violated the following grant conditions:

-     The Phase I grant application overstated entry level police
  officer salary and fringe benefits by $22,311 over the life of the grant.
- The CPD charged to the Phase I grant salary and fringe benefit cost for journeyman
  police officers. This resulted in overcharging the Phase I grant $16,856. In addition, the
  CPD charged this grant for unallowable overtime ($3,661) and uniform allowance ($1,500).
- The CPD overcharged the UHP grant ($3,902) through February 28, 1997, because the CPD
  billed for excessive costs that exceeded the salary and fringe benefits paid to an entry
  level police officer. In addition, during the same period the CPD charged the grant for
  unallowable overtime ($3,425) and uniform allowance ($2,950).
- The CPD failed to submit 9 of the required 12 Phase I grant Financial Status Reports.
  Of the 3 reports submitted, one was late, one was not signed or dated, and only one was
  submitted timely.
- The CPD failed to submit 6 of the required 8 UHP Financial Status Reports. Of the 2
  reports submitted both were timely. None of these reports accurately stated the UHP
  grant's financial status.
- The CPD had not prepared and submitted Officer Progress Reports. The Phase I Initial
  Report was not submitted timely, nor did it accurately state the baseline number of
  officers. In addition, only one Annual Department Report for the Phase I grant had been
  submitted.
- A good faith formal plan to retain Phase I, UHP, and MORE 96 officers had not been
  developed.


#####